<html>
<title> - Democracy Deferred: The State of Elections and Fundamental Freedoms in Azerbaijan</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress }                            Printed for the use of the             
2nd Session    }      Commission on Security and Cooperation in Europe                       

======================================================================

	                     Democracy Deferred: The State
	                    of Elections and Fundamental
	                       Freedoms in Azerbaijan



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                              May 9, 2018

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2019


      Commission on Security and Cooperation in Europe
                  234 Ford House Office Building                                               
                   Washington, DC 20515
                      202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94f7e7f7f1d4f9f5fdf8bafcfbe1e7f1baf3fbe2">[email&#160;protected]</a>
                      http://www.csce.gov
                         @HelsinkiComm

                                      
                                      
                                      
            Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.



          Democracy Deferred: The State of Elections and
                Fundamental Freedoms in Azerbaijan


                              May 9, 2018


                                  				Page
                              PARTICIPANTS


    Everett Price, Policy Advisor, Commission on Security and 
Cooperation in Europe                                               1

    Dr. Audrey L. Altstadt, Professor of History, University of 
Massachusetts-Amherst                                               3

    Maran Turner, Executive Director, Freedom Now                   6

    Emin Milli, Director, Meydan TV                                 9

 
           Democracy Deferred: The State of Elections and
                  Fundamental Freedoms in Azerbaijan
                  
                              ----------                              

                              May 9, 2018




    The briefing was held at 10:32 a.m. in Room SVC 215, Capitol 
Visitor Center, Washington, DC, Everett Price, Policy Advisor, 
Commission on Security and Cooperation in Europe, presiding.
    Panelists present: Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe; Dr. Audrey L. Altstadt, Professor 
of History, University of Massachusetts-Amherst; Maran Turner, 
Executive Director, Freedom Now; and Emin Milli, Director, Meydan TV.

    Mr. Price. Good morning, everyone. I'll let people take a second to 
get seated. On behalf of our Chairman, Senator Roger Wicker, and Co-
Chairman, Congressman Chris Smith, I want to welcome you to this U.S. 
Helsinki Commission briefing titled ``Democracy Deferred: The State of 
Elections and Fundamental Freedoms in Azerbaijan.'' I'm grateful for 
your presence with us this morning and extend my appreciation to all of 
those who are tuning in from around the world via our Facebook Live 
stream.
    My name is Everett Price. I am the commission's policy advisor 
responsible for the Southern Caucasus region. The commission is 
convening this briefing this morning to assess the state of democracy 
and human rights in Azerbaijan today. As a participating State of the 
Organization for Security and Cooperation in Europe, Azerbaijan, like 
the United States and over 50 other nations, has freely undertaken 
robust commitments in the fields of democratic principles and basic 
rights. Our commission is charged with monitoring the implementation of 
these commitments across Europe and Eurasia and informing American 
foreign policy toward the OSCE and its member States.
    Regrettably, the actions of the Azerbaijani Government have given 
us cause for concern in recent years. At the start of his second decade 
in power, President Ilham Aliyev in 2013 tightened his regime's grip on 
national institutions, the political opposition, and independent press. 
Our commissioners closely followed these developments and drew 
attention to them. In December 2015, then-Commission Chairman 
Congressman Chris Smith introduced the Azerbaijan Democracy Act which, 
among other things, sought to impose strict travel bans and asset 
freezes on Azerbaijan's leadership until the government released 
political prisoners, ceased its harassment of the media and civil 
society, and demonstrated progress toward free, fair, and transparent 
elections.
    Since the introduction of the Azerbaijan Democracy Act, the 
government has freed some political prisoners. But it has continued, 
and in some ways escalated, its clampdown on political activists and 
the press. What's more, the country has not held a single free and fair 
election. Quite to the contrary, President Aliyev staged a popular 
referendum in September 2016 that extended presidential terms from 5 to 
7 years and empowered himself to appoint his wife as vice president, 
unilaterally placing her at the top of the line of succession. Amidst 
widespread harassment of journalists and anti-referendum campaigners, 
the government reported that the sweeping constitutional changes were 
approved with around 90 percent of the vote.
    2017 brought more worrying developments. Having, over the years, 
shuttered, co-opted, or otherwise censored all independent print, TV, 
and radio media, the government took the next step by blocking 
virtually all the country's major online sources of independent 
reporting, including Meydan TV, whose director is here with us this 
morning. There were also disturbing claims that the government has 
resorted to kidnapping independent journalists abroad. In September of 
last year, Congressman Smith and Congressman McGovern responded to 
these events by introducing a successor bill to the Azerbaijan 
Democracy Act, House Resolution 537. H. Res. 537 calls on the U.S. 
administration to pursue targeted human rights and religious freedom 
sanctions against Azerbaijani authorities.
    Just last month, President Aliyev was re-elected to a 7-year term 
with more than 86 percent of the vote. The government fulfilled its 
commitment to invite the OSCE to observe the election and the 
observation mission conducted its work freely. Unfortunately, however, 
the international observers had a bleak story to tell. The OSCE's 
preliminary conclusions described a vote that ``lacked genuine 
competition'' amidst a ``restrictive political environment and legal 
framework that curtails fundamental rights and freedoms.''
    Azerbaijan is an important partner for the United States in a 
sensitive and critical region. Our examination of Azerbaijan's human 
rights record is born out of this recognition. The United States holds 
its friends to a higher standard in the interest of fostering stable 
and enduring partnerships that are rooted in core values. As Azerbaijan 
prepares to mark 100 years of independence on May 28, it has the 
opportunity to open a new century by renewing its respect for the 
fundamental freedoms and dignity of its people. Our expert panel today 
will help us to take stock of this moment in Azerbaijani history, and 
the steps that are needed to begin charting a new path. With us today 
are distinguished experts in Azerbaijan in different aspects of this 
situation that we're examining.
    First, we'll begin with Audrey Altstadt, a professor of history at 
the University of Massachusetts-Amherst. She is the author of numerous 
articles, op-ed essays, and three books, most recently ``Frustrated 
Democracy in Post-Soviet Azerbaijan,'' published by the Woodrow Wilson 
Center Press and Columbia University Press just last year in 2017. She 
is chair of the George F. Kennan Institute Advisory Council and has 
been a consultant to The Freedom House, Radio Liberty, U.S. Departments 
of State and Justice, other U.S. Government agencies, and the U.S. Army 
War College. She earned a doctorate from the University of Chicago and 
an honorary doctorate from Khazar University in Baku, Azerbaijan.
    Dr. Altstadt will help us with an overview of the situation facing 
democracy and elections in Azerbaijan. And then we'll move on to our 
other panelists who will discuss the situation regarding political 
prisoners as well as media freedom in the country. And without further 
ado, I will turn it over to Dr. Altstadt. Thank you for being here.
    Dr. Altstadt. Thank you. I want to thank Everett and I want to 
thank the commission for the opportunity to be here and make these 
comments.
    Azerbaijan's political profile in both law and practice continues 
to move away from democratic norms, as exemplified in its recent 
presidential election of April 11. The turn away from democracy has 
been apparent throughout most of the post-Soviet period, but has 
changed noticeably under Ilham Aliyev's presidency, since 2003. 
Although we often hear about the crackdown of 2014, I think that the 
pattern that it refers to actually began after the 2012 elections to 
the national assembly, because in that election the major opposition 
parties were sidelined, and the ruling party and its supporters gained 
a substantial majority in the national assembly. That control of the 
legislature was instrumental in centralizing control in the executive.
    The tightening of controls in Azerbaijani politics is readily 
measurable in the electoral process. And so I'll begin briefly by 
mentioning a few points that come up with the recent OSCE ODIHR 
monitoring reports concerning the April 11 election. Those of you 
familiar with the OSCE process--probably most of you in this room--know 
that there are several reports for each election: a needs assessment 
report, an interim report prior to election day, a preliminary post-
election report, and the final report. The last time I checked, which 
was last night, that was not yet up on the website. The election 
itself, as previously, was marked by ballot box stuffing, carousel 
voting, irregularities in polling stations and in counting. At the end 
of the day, the election campaign was deemed to have been not 
competitive. None of the candidates offered significant alternative 
views or criticism of current policies, or of the incumbent.
    One of the strengths of the OSCE ODIHR reports--which I've used 
over the years and read every one with respect to Azerbaijan--is that 
they not only examine the applicable laws and the events of the actual 
day of voting, but they also examine the laws and the structures, the 
media environment, and the role of authorities prior to the election 
day, as well as other times. I want to draw attention to just a couple 
of points here. This is by no means an exhaustive list. First is the 
timing of the election in April 11. This was in and of itself an 
anomaly, because in the past, elections have been held in the fall, 
usually October or November. And indeed, this election also was 
originally scheduled for October. It was moved to April 11 only in 
February.
    The reason for the abrupt change has been a subject of lots of 
speculation, most vocally, I suppose, the undercutting of the 
opposition. But the opposition has been so significantly sidelined by 
previous policies and practices that that doesn't seem like a real 
major reason to make such a sudden change. There was also discussion 
about Ilham having serious illness and needing to undergo medical 
treatment. I don't know whether any of these things are true, but I 
will return to this point at the end.
    The second point in my thinking really has to do with how it is the 
election got moved in the first place. And this is related to another 
aspect of the OSCE ODIHR reporting, which is the larger, complex legal 
and constitutional issues, some of which Everett just talked about in 
his introduction--the constitutional amendments, more than 100 of them, 
which were rushed through in the summer of 2016, which then 
concentrated more power in the hands of the president.
    A third aspect is the concentration of power in the ruling party in 
the national assembly. The ability to make changes in law and in 
conditions that allow for the ruling elite is really significant. First 
of all, with respect to elections, it means that YAP, the Yeni 
Azerbaycan Partiyasi, the ruling party, not only controls a third of 
the election commission, its other supporters control more than that. 
Therefore, it also controls all the lower level commissions. And it 
chairs all the commissions at all levels. Many of the opposition 
parties and opposition parliamentarians--used loosely in this 
instance--who are deputies of the national assembly are in fact nominal 
opposition. But they are actually regime supporters. This lock on the 
national assembly is what allows the assembly to introduce bills, 
debate them, and then implement them as if they were in fact a product 
of independent, elected action by an elected body, rather than a diktat 
of the regime. And this process is a charade.
    A fourth point is the general environment in which the election 
took place. Constraints on the media, which others will talk about, and 
public demonstrations, which are constrained and sometimes quashed with 
the use of violence by the police. There is intimidation of potential 
participants, and sometimes just physically blocking access to 
demonstrations by closing streets or by closing subway stations. And 
these are significant because they are an important measure of civil 
society participation, which is essential in a democratic system. In 
the same way that many of the opposition parties are not really in the 
opposition, many of the so-called NGOs are actually GONGOs, or 
government-organized nongovernmental organizations. These are also a 
fiction.
    And finally, one of the things which concerns me the most is the 
specific targeting of the younger generation, people that are 40 and 
under, those who have been shaped to the least degree by Soviet 
education and Soviet expectations.
    There is a wider situation here, which is an important context for 
understanding political life, governance, and other issues in 
Azerbaijan. In Azerbaijan we are seeing democracy in form but not in 
substance. The regime uses the terminology of democracy, but in fact it 
establishes a system which it controls and shapes for the regime's own 
benefit. This is really the opposite of a democracy. And yet, the 
regime and its representatives insist that the form is the substance. 
There are supporters who make this argument. There are those who have 
been persuaded by gifts or lobbying from Azerbaijan. But there are 
groups that are not fooled. And the OSCE is one of those. The Venice 
Commission has not been fooled. The European Court of Human Rights has 
not been fooled.
    The numerous rulings which the court has made against cases brought 
from Azerbaijan have been ignored in Baku. And even though the regime 
talks about conforming to its principles and of the Council of Europe, 
in fact when it comes right down to the actions, they violate these 
regularly. Late last fall, the Council of Europe finally stood up to 
the pressures of the regime and voted to potentially expel Azerbaijan 
from its membership in a multistep process that it is beginning. This 
infringement process would first begin with loss of voting rights. If 
it should take place, and if they should ultimately get to a point of 
expelling Azerbaijan or getting close to expulsion, this would be an 
enormous embarrassment for the regime. And the Aliyev regime certainly 
does not like to be embarrassed.
    And this, in my mind, brings us back to the reason which I believe 
is a crucial reason for having moved the elections in the first place, 
and that has to do with the case of Ilgar Mammadov. And, again, my 
colleagues will talk more about this, but the European Court for Human 
Rights ruled that his 2013 conviction was, in fact, politically 
motivated and ordered that he be released. But he was not. The warnings 
were ignored. And in November 2017, there was a Council of Europe 
deadline which passed, not surprisingly that the regime, again, 
ignored. And then that's when the Council of Europe threatened to take 
these infringement steps.
    Perhaps it is only coincidental that a few weeks later Azerbaijani 
law was changed to allow the president to move the date of elections, 
as long as they were within 60 days--or, more than 60 days from the 
date of setting. It was then about a month and a half after that that 
the elections were, in fact, rescheduled. I don't believe in 
coincidences, so I suspect that this is in fact a way to move the 
election to beat this multistep process by the Council of Europe and 
then, before they could take an action, release Ilgar Mammadov--too 
late for him to be a contender in the Presidential election, but in 
time to stop this action against Azerbaijan.
    There is a notion that Azerbaijan is a good partner for the West 
and for the United States with respect to energy cooperation, military, 
and business opportunities. I'm well familiar with this explanation, 
and also the plea that Westerners should be fair and talk about the 
advances that this regime has in fact made in terms of rebuilding the 
infrastructure, finding housing for internally displaced persons 
(IDPs), improving the poverty rate in the country. I do acknowledge 
that. And I do, indeed, want to be fair. And to be further fair, I also 
want to point out that many of these infrastructural improvements were 
made in such a way that the companies that in fact carried them out are 
owned directly or indirectly by the first family and other oligarchs, 
allegedly, in conjunction with international reporting, which has taken 
place and discovered ownership of these various companies.
    So in other words, the picture is indeed complex. I want to 
acknowledge that. I want to point out that we are talking about that. 
And in Azerbaijan, there really are stark differences between, let's 
say, those who have these opportunities to make money through tourism 
and construction, who have the ability to gain immense private wealth 
while some IDPs are still living in train cars. There are people whose 
children go to schools in Baku that are underfunded. They have to pay 
teachers just to get the grades the students earn, much less better 
grades. And then there are other people who, of course, send their 
children to school abroad, where they can live in condos in London or 
New York and go to private schools. So the gap between the rich and the 
poor, the haves and the have-nots, is very stark here.
    The underlying argument that Azerbaijan is a good partner in some 
ways is not the argument I'm making. I'm making quite the opposite 
argument. I'm making the argument instead that the key function of 
government is to protect the individual, regardless of the individual's 
views or beliefs. And I think, speaking as a historian, that one thing 
we learn from the 20th century is that systems that repress individual 
human rights and human beings ultimately may look like they're good 
partners, but in the end make poor partners because they are ultimately 
untrustworthy.
    Mr. Price. Thank you very much for that insightful overview. That 
helps set the stage for the rest of our conversation.
    Next, I'd like to turn to Maran Turner. She's the founding 
executive director of Freedom Now, a U.S.-based organization that works 
to eliminate politically motivated detention worldwide. Among its 
efforts is the individual representation of prisoners of conscience, 
working with pro bono counsel and NGO partners to provide legal 
assistance and targeted advocacy initiatives intended to secure the 
release of those arbitrarily detained. Freedom Now has worked 
extensively in Eurasia, and since 2010 has maintained active cases and 
projects in Azerbaijan. The rest of her bio is available in your 
folders.
    So, Maran, thank you.
    Ms. Turner. Thank you, Everett. And my thanks to the Helsinki 
Commission and to all of you. I'm delighted to see a room that has 
quite filled out. I know all of us here maintain a keen eye on what 
happens in Azerbaijan. And it's important to see such interest from you 
all as well.
    Subject to my bio, as Everett just read, I'm going to speak about 
the situation pertaining to political prisoners in Azerbaijan, which is 
an ongoing and destabilizing trend that's ripped apart families and 
ripped apart the strong networks of civil society. As small as it was, 
it was a great hope for the future of that country. And as my 
colleague, Audrey, has spoken about, President Aliyev has really 
meticulously consolidated power around his family and a small cabal of 
loyal allies. And this is really what's provided the framework for the 
sheer scale of politically motivated imprisonment. It's what has made 
it possible to keep him insulated from criticism and from political 
threat. And true to the authoritarian's playbook, Aliyev and his close 
associates do this by maintaining a strict hold and exploiting primary 
institutions like the judiciary, law enforcement, and the media.
    But it's the law enforcement and the judiciary that's been 
especially busy, since commencing a crackdown that began in earnest 
around 2011-2013. This intensified, quite famously, in 2014, when civil 
society was quite decapitated in the country, and the leaders of a 
dozen civil society organizations were arrested. This was after the 
government had implemented a series of NGO laws which, at the time, we 
suspected where they were going with that. But there was optimism late 
in 2015 and 2016, when about a dozen of these individuals had been 
released. And these were people that a lot of us paid close attention 
to, because they were people--journalists, lawyers, and human rights 
defenders--who we had worked with over the years, who had been bringing 
us cases of other political prisoners. And all of a sudden, they were 
in jail.
    It meant a lot to us to advocate for their release. And we were all 
very heartened when we saw them released. But we were not operating 
under an illusion that change was coming. And in fact, the revolving 
door carried on. More arrests came. And many people actually were not 
released and stayed in prison, and still are. Today, there's around 140 
to 160 political prisoners. This is actually more than the number that 
was reported in 2014, at the height of the crackdown. The people in 
prison are lawyers, journalists, activists, politicians. Since that 
time, since a number of them have been released, they've gone into 
exile. Even before those arrests, there were a number of people working 
in the country as journalists and human rights defenders who saw the 
writing on the wall and escaped.
    Some came to the West. For the most part, they have been able to 
continue their advocacy from abroad. But as many can tell you, Emin as 
well, their family members have suffered on their behalf at home. 
Others went to neighboring Georgia. There are obvious drawbacks to 
activists. Even though they've been able to carry on their advocacy 
from abroad, they are not on the ground. And the government has been 
able and has done their level best to paint them as traitors who've 
escaped the country to go join outside forces.
    One particularly egregious example I want to speak about, which 
Audrey touched on as well, is the case of Ilgar Mammadov. He's 
important for a couple reasons. One, he has been in jail since 2013, 
when he wrote a blog post dispelling a narrative that the government 
had been putting out and promoting with respect to a demonstration that 
had turned destructive. He was sentenced for essentially fomenting mass 
disorder and was imprisoned--and put in prison for 7 years. And he's 
still there. I don't think any of us expected this. There was a lot of 
international and local attention on his case in 2013, in 2014. When 
the other arrests came in 2014, Ilgar Mammadov's case continued to be 
on every short list I saw that was going to the State Department and to 
the European Union calling for his release.
    As Audrey mentioned, he actually was subject to two European Court 
decisions, one with respect to the denial of his pre-trial release, and 
then also with respect to the government's failure to provide him with 
a fair trial. And what was notable on both those cases is that the 
European Court found a violation of Article 18, which is essentially 
political motivations on the part of the government. Again, Ilgar is 
still in prison. And, again, as Audrey mentioned, the infringement 
proceedings have been taken up by the European Court at the request of 
the Council of Ministers. Suspension or expulsion is possible. A few 
years ago, I don't think any of us in the international human rights 
community wanted that. We continued to maintain that having Azerbaijan 
in the Council of Europe, subject to the jurisdiction of the European 
Court, was critical. That being surrounded by discussions and a spirit 
of rule of law and democratic principles could only fare well in the 
long term.
    Unfortunately, now I don't know that there's many that continue to 
hold that position. Reports have come out in recent years--most 
recently from the Parliamentary Assembly and the Council of Europe--
that detail a level of corruption that is staggering and beyond, I 
think, even what people working inside the Council of Europe were 
already aware of. It seems now that rather than what people thought 
would be a democratizing impact, has actually been the opposite. That 
in fact, having Azerbaijan inside the Council of Europe unfortunately 
has been a corrupting force. To put this in context, Ilgar's petition 
or application at the European Court is actually just one of 2,000. 
There are 2,000 cases pending at the European Court against Azerbaijan. 
Last year the court decided 26 cases, found human rights violations of 
24 of them--violations related to rights to freedom from arbitrary 
detention, right to fair trial, and right to freedom of assembly and 
association.
    I want to touch on a couple of things before I close. Among the 
cases that don't get enough attention, frankly, are the religious 
freedom cases. This issue has been made quite murky by the Azerbaijan 
Government which declares these individuals as extremists and under the 
influence of Iran. And while there are no doubt some radicals in the 
country, Iran has gained influence inside as well, and the Azerbaijani 
Government is secular, 60 percent of the prisoners of conscience on 
these lists are those who have been put in prison because of their 
independent practice of Islam, and their association with outspoken 
clerics that has been used as an impetus to imprison them.
    The U.S. Commission on International Religious Freedom has 
designated Azerbaijan as a tier two country, indicating that violations 
of religious freedom are systematic and ongoing. Best example of this 
is the so-called Nardaran raid in 2015, where a number of individuals 
associated with a group called the Muslim Unity Movement were arrested. 
They were charged with inciting violence. Their leaders have been 
horrifically treated and tortured. In fact, just last week there were 
reports of new beatings. This group has been well known to civil 
society in the country. In fact, they're not known for religious 
advocacy or even particularly political. They're actually more known 
for protesting the government's treatment and policies toward them, as 
well as their calls for a better social support system. If there's a 
lesson that we've learned in the war on terror, it's that branding 
innocent people, especially community leaders, as terrorists can lead 
to radicalization within the country. And while their pleas might fall 
on deaf ears in Baku, I can tell you that Tehran is all ears.
    The final trend I want to touch on is Azerbaijan's transnational 
activities. As more and more dissidents have fled, the government's 
tentacles have spread out in search of them. Those in exile in the U.S. 
and Europe, as I mentioned, have mostly been left alone. Their family 
members have not. They're harassed. They're threatened. They're 
detained. And in neighboring Georgia there's been sufficient evidence 
that the Azerbaijani authorities have acted in that country almost as 
though it's their backyard. We, along with a couple of other 
organizations, did a trip to Georgia last summer, where we documented 
systematic instances of people being followed, surveilled, and directly 
threatened.
    The most egregious, of course, is the May abduction of the 
journalist Afgan Mukharli, who was convicted, after being kidnapped, of 
illegal border crossing and having 10,000 euros on him, which is an 
illegal amount. Exactly 10,000. Not 9,000, not 11,000, but the exact 
amount of 10,000. He got 7 years. His wife, no longer feeling safe in 
Georgia, fled the country for another country in Europe. The Georgians 
are still ostensibly carrying out that investigation. As last I 
understood it, the Azerbaijanis were still denying them access to Afgan 
himself so that they could question him.
    So to close, it's time for a new strategy on Azerbaijan. Since the 
time I've been working on the country, this regime has gotten more 
emboldened and more calculating. They've also become impervious to 
outside pressure, but at the same time more concerned with cultivating 
a sophisticated image. But this is an authoritarian kleptocracy. And a 
seat in the elite circles in Washington and London should not come so 
cheaply. Until they actually start to meet the standards that they 
profess to adhere to, they should be shunned. Until they stop their 
systematic campaign against civil society and address the impunity 
within their law enforcement ranks, they should be turned away.
    It's time to start naming and shaming. It's not Azerbaijan that's 
committing human rights violations. It's people inside the government 
that are committing human rights violations. These are ministers. These 
are prosecutors. These are judges. These are police officers. And it's 
time to hold them to account or call on the authorities in Baku to hold 
them to account. This means we have to start talking more stick and 
less carrot. And that includes Global Magnitsky.
    I'll leave it at that.
    Mr. Price. Thank you very much, Maran.
    Now I'd like to turn to Emin Milli, managing director of Meydan TV, 
independent online media for Azerbaijan. Meydan TV has been launched 
from Berlin in 2013. It is reaching weekly around 10 percent of the 
entire population in Azerbaijan. From 2002 to 2004, Milli was 
coordinator of the Friedrich Ebert Foundation. And prior to that, he 
was a coordinator of the International Republican Institute in 
Azerbaijan. Milli was sentenced in 2009 for 2\1/2\ years for his 
critical views about the government of Azerbaijan and spent about 17 
months in jail. He has a master's degree in state, society, and 
development from the University of London School of Oriental and 
African Studies. We're grateful that he's here with us from across the 
Atlantic.
    Thank you, Emin. Please go ahead.
    Mr. Milli. Thank you very much for invitations. Thank you for 
coming. I really would like to apologize that what I will talk about 
now is not exactly the speech of a media manager, but more of a citizen 
of Azerbaijan.
    On behalf of Ilgar Mammadov, who has been a candidate in 
presidential elections but was jailed and wasn't given this 
opportunity. On behalf of Giyas and Bayram, who just wrote graffiti on 
the monument of Heydar Aliyev, father of the current president, and got 
just for this 10 years in jail, and have been tortured. On behalf of 
the 2-years-old niece of Ordukhan, who is the most efficient and the 
greatest political activist who lives abroad now, who organized a lot 
of protests in front of embassies of Azerbaijan abroad. And for this, 
12 members of his family--his brothers, sisters, and even 2-years-old 
niece, Siljan [ph]--were detained. They were threatened. And the 
government used this as a weapon to silence him.
    On behalf of Tural Aliyev, Ordukhan's 19-year-old nephew, who was a 
student at Baku State University and who was arrested just a week ago, 
again to target Ordukhan personally. On behalf of Ilkin Rustamzadeh, 
who is now for years in jail just for organizing peaceful protest 
against the crimes committed in the army of Azerbaijan against soldiers 
of Azerbaijan by the government of Azerbaijan. I will try to speak 
briefly on behalf of all these people, and millions of others who are 
silenced, who live in fear, who are robbed by their own government.
    One hundred years ago, Azerbaijan created the first democratic 
republic in the Muslim world. This is the heritage of 10 million people 
living today in Azerbaijan. Unfortunately, 100 years later we feel 
ashamed. We're feeling the shame that now in the Caucasus, we're the 
only country that didn't manage to get rid of the criminal and the 
dictator, who usurped the power. And I accuse Ilham Aliyev of all the 
crimes, all the detailed reporting that Audrey Altstadt and Maran 
Turner just presented to you, all these crimes of falsifying elections, 
torturing people, kidnapping people of Azerbaijan from other 
countries--like Afgan Mukharli, investigative journalist who was 
publishing his investigations about Aliyev and his businesses in 
Georgia at Meydan TV.
    All these crimes of torturing people in prisons of Azerbaijan, 
going after their relatives when they speak out against the regime 
abroad, stealing of billions and tens of billions of dollars that came 
to Azerbaijan within last two decades from selling oil and gas--all 
these crimes, these are not abstract crimes. These are very specific 
crimes. And the person who leads this gang--because I cannot call it a 
government--is Aliyev. You know, there has never been, since Aliyev 
came to power, any sort of legitimate elections. These are not 
elections.
    When Vaclav Havel wrote in his essays, and in ``The Power of the 
Powerless,'' but also in other essays, that certain concepts that you 
are using, like democracy, or parliament, or freedom of assembly, rule 
of law--these concepts that are born in the West, and they have been 
developed and have certain meanings--when they're applied in 
authoritarian countries, like Azerbaijan today, they lose any meaning. 
So if we talk about elections, I cannot talk about elections in 
Azerbaijan because elections do not exist in Azerbaijan as you 
understand it here.
    This is very important for when we analyze. All these election 
observation missions, they lose their meaning because there is nothing 
to analyze. There is no legitimate process that is going on in 
Azerbaijan. So today I stand here and, again, on behalf of people of 
Azerbaijan, accuse Ilham Aliyev for stealing 2.5 billion U.S. dollars 
and allocating this in British offshore bank accounts, and using this 
money not just against people of Azerbaijan, but against Europe, 
European Union, and against the U.S. What have they been doing with 
this money? And this is just 2.5 billion dollars.
    This money has been put in these accounts by companies linked to 
Aliyev's family, linked to the International Bank of Azerbaijan, linked 
to ministries of Azerbaijan. This was a top story in The Guardian and 
the Organized Crime and Corruption Reporting Project, OCCRP, 
investigated this. There is evidence from just 2012 till 2014, 2.5 
billion U.S. dollars--just think about this. Three million dollars on 
average per day has been channeled from Azerbaijan to British offshore 
bank accounts to bribe European politicians, American politicians, 
journalists, the expert community.
    When such American and European politicians talk about Aliyev as a 
friend or an ally--because there are such American politicians and 
European politicians who talk about Aliyev as an ally--you have to 
think about this. What Aliyev and his family have been doing now for 
decades is destroying and committing crimes not just against the people 
of Azerbaijan. They have been committing crimes against the United 
States of America, against European Union member States. The Council of 
Europe, in fact, just published a report--it's more than 200 pages--
which exactly detailed how they have been spending these tens of 
millions and hundreds of millions.
    They are bribing European politicians. Not just any politicians. 
Luca Volonte, who has been accused now of receiving more than 2 million 
euros from our government, he wasn't just any politician. He was leader 
of the faction of the European People's Party in the Parliamentary 
Assembly of the Council of Europe. Another case, CNN producer Eckart 
Sager. If you watch CNN, what CNN is doing? They are promoting this 
dictatorship. They are promoting this money, which is also coming from 
these offshore bank accounts. This money has been robbed from the 
people of Azerbaijan.
    There has been a call to investigate how the Aliyev regime has also 
corrupted members of the EU Parliament. And I think it's time that the 
U.S. Congress investigates if and how Aliyev regime corrupts 
politicians, journalists, media, and the expert community in the U.S. 
Two former U.S. ambassadors are now on the payroll of the Aliyev 
regime. It's a shame. If I was an American, I would feel ashamed. It's 
not just about Azerbaijan. Aliyev became a symbol of corruption. It's a 
global symbol of corruption. Someone who commits crimes against his own 
people. Someone who is very effective.
    Azerbaijan's a small country. For a small country, Aliyev is 
extremely effective in helping to spread narratives like Kremlin 
propaganda spreads around the world. What does Kremlin propaganda say? 
That the West is corrupt. It's in decadence. It's corrupting. 
Everything is relative. We have corruption. They have corruption. What 
do you want from us, right? This is exactly word for word what 
Azerbaijani state propaganda says every day to 10 million people in 
Azerbaijan and around the world. It's not just the 10 million people 
living in Azerbaijan. Azerbaijanis are spread around the world.
    So Aliyev is not a friend. He is an enemy. In my view, it is 
extremely important to talk about sanctions against Aliyev, because he 
is on the top of this criminal pyramid. He became a symbol. It became 
fashionable today to be a dictator, to be authoritarian. You know this 
here in the U.S. You know in Europe. Journalists are not just killed in 
Azerbaijan anymore. They are killed in Europe. They're attacked in the 
U.S. And if you think, conservatives or Democrats, that just focusing 
on the U.S. will save the U.S., well, I have bad news for you.
    The very reason that the frontlines of freedom of expression, 
democracy, freedom at large are not in this post-Soviet space anymore 
but, in Hungary, in Poland, in the U.S., in Britain, in France, is 
because for two decades European and American politicians thought that 
the best way to deal with people like Aliyev is to avoid escalation. 
Every time when some media outlet has been shut down, some politician 
has been killed, a political activist has been jailed, what was the 
reaction? Statements of `we're deeply concerned,' accepting the 
reality, signing more contracts, more business, energy issues, and 
security issues.
    All this backfired, because you have to understand, leaders like 
Aliyev, they have this gangster mentality. Aliyev doesn't say anything 
bad about Russia or Putin. He himself and his entire propaganda use 
very tough language against Europe and against the U.S. They shut down 
Radio Liberty in Azerbaijan. Even Putin didn't shut down Radio Liberty 
in Moscow. He thinks that these are weak leaders. They cannot do 
anything to him. He can bribe American and European politicians into 
accepting his way of life.
    It's not just his way of life. This is the way of life and thinking 
supported by all dictators around the world. And this is coming to your 
home. This is in the U.S. now. This is in Europe now. If you are Le Pen 
and if you are supported by another dictatorship, you can go to the 
bank and take millions to fund your campaign. Now, show me the bank 
where you can go if you want to become president of Russia, if you want 
to become president of Uzbekistan, if you want to become a president of 
any other dictatorship--to fight against a dictatorship. Is there any 
bank you can go and take so much money?
    So dictators became, like Aliyev, again, much more creative. The 
entire global civil society infrastructure of supporting freedom--we 
have to accept it--became more outdated. I really would like to thank 
the U.S. Helsinki Commission, Chris Smith personally, many congressmen 
and people in the U.S. Government and in Europe, who understand this 
and try to put, for example, Azerbaijani officials on the sanction list 
and who try to put Russian officials who violate human rights in Russia 
on the sanction list.
    But unfortunately, this is not mainstream political decisionmaking. 
You know, much more needs to happen. So, again, I would like really to 
repeat that it is extremely important to personally put Ilham Aliyev on 
this sanctions list to show, for example, not just to Azerbaijan, not 
just to send a message around the world, but also to send a message 
here in the U.S., at this difficult time, to show people in the U.S. 
and around the world, what the U.S. is really about. That it's about 
values. It's about democracy. It's about human rights. And if you stop 
promoting this abroad, you will have these problems at home.
    Thank you very much. [Applause.]
    Mr. Price. Thank you very much. Thank you very much, Emin, for your 
powerful words and testimony, as you said, on behalf of people in 
Azerbaijan.
    I want to take just a few moments in my prerogative as the 
moderator to ask a couple questions before turning over the floor to 
the audience for your questions as well. First, I'd like to address the 
question of the opposition, which some of you touched on. Obviously, 
the opposition that participates within the parliament, as you said, 
Audrey, is not a legitimate one or a credible one. But there are 
genuine opposition movements that exist in Azerbaijan. And all of you, 
I think, discussed how many of them have fled the country and now exist 
in the diaspora.
    Could you--from each of your perspectives--address what are the 
main opposition groups and what is the state of them now? And to what 
extent and how are they constrained and controlled by the government?
    Dr. Altstadt. Okay. Well, one of the most potentially significant 
is the REAL Alternative--REAL, with which Ilgar Mammadov is associated. 
I'm saying that it is potentially influential because all the 
organizations that function or try to function inside of Azerbaijan are 
very sharply constrained in ways that my colleagues have both mentioned 
in terms of direct attacks on them or pressure on their families in and 
outside the country. One of the distinguishing features of REAL is that 
it tends to be a younger generation. It's that generation of people 40 
and under who have not been as significantly shaped by Soviet system 
expectations, education, and so on, as the older generation had been.
    I think that Aliyev and his group are, I believe, especially 
fearful of the younger group because there are lots of groups of young 
activists who are involved in all of the assorted color revolutions, 
so-called, starting with Georgia, which took place right next door when 
he first came to the presidency in 2003. And I think that that probably 
felt to him like the shot across the bow. I think that's potentially 
one of the most significant ones.
    Mr. Price. Sorry, could you also address the opposition's 
participation or non-participation in the election? Was that a decision 
that was taken by the opposition? Were they constrained by the timing 
of the election as well? I know you talked about it a little bit, but I 
was wondering if you could expand on it.
    Dr. Altstadt. Because the major opposition parties are the older 
parties with the older leadership, they've been effectively 
marginalized. Their offices that used to be downtown are now out in 
little rust-bucket suburbs and so on. They don't have the resources, 
they don't have the means to maintain a regular network. So for them, 
having a long time to prepare to contest elections, such as they are, 
is really essential for them. And so rather than try to scramble and 
put together with their minimal resources, their small networks, and so 
on something relatively last minute, I think that was a key reason why 
they decided to boycott.
    Another reason, of course, as Emin mentioned, you really can't talk 
about elections in the way that we understand them in a Western 
country. And the opposition still understands this. The Milli Shura, 
the national council, has said these kinds of things. And so there's a 
sense of `what's the point?' If we can't get out there and make our 
points, make our arguments, get ourselves into the public eye, then the 
next-best strategy is probably a boycott. And if they were not already 
so weakened and so constrained, there might have been other 
possibilities for them.
    Of course, the additional problem, I suspect, is that lots of them 
are potentially discouraged. They've been fighting this fight for a lot 
of decades and they don't have any opportunity to move forward. So I 
think these components go into their thinking.
    Mr. Price. Emin, want to say a few words on that?
    Mr. Milli. Yes. Regarding the opposition, well, again, it depends 
how you define opposition. There is no opposition in a sense that you 
understand opposition here in the U.S., because there is no condition. 
Opposition in the U.S. is a part of a system. It's part of how this 
country is run. This is not the case in Azerbaijan. Aliyev has created 
such a system that opposition is branded 24/7 on the entire pro-
government TV as enemies of the people, enemies of the state, all the 
time. These are people who are killed, jailed, tortured, forced into 
exile, travel ban is imposed on them. So you cannot talk about 
opposition.
    You have a group of citizens--various groups, individuals--who are 
not giving up the fight inside of the country and outside of the 
country. And I am actually optimistic about the prospects of change in 
Azerbaijan, because REAL is one of the political groups who potentially 
has power to lead the change when the situation is right. So there are 
a lot of very educated, very talented experts, and politicians. This is 
another argument that kills everything that the government propagates 
inside and outside of the country, that there is no one except Aliyev 
who can run the country. This is just a lie.
    There are also, you know, quite experienced, again, expert 
community inside and outside of Azerbaijan. There is a new phenomenon 
of bloggers and activists abroad. As Maran explained, many people had 
to flee. For example, Ordukhan is one of the most effective 
communicators and political activists who lives in the Netherlands. He 
communicates, alone, with 1 million people every week. Some of his 
videos get hundreds, thousands of views. He is not alone. There are 
several other bloggers like him. If Meydan TV communicates every week 
with 1 million people, people like Ordukhan alone communicate with 
hundreds, thousands, and up to 1 million and sometimes more than 1 
million people inside of Azerbaijan.
    This has never been the case before. And I ask myself a question: 
If people of Azerbaijan are so happy about this development and 
stability as Aliyev and his propaganda states, then why would people 
watch Ordukhan or Meydan TV or other bloggers who basically expose 
corruption, expose how the government and its officials treat ordinary 
citizens, the people's social problems, what people are facing. The 
reason why Meydan TV is popular is because we are just showing how 
people are living their everyday lives. That is the most popular 
content we have.
    But when we show who is really vice president, the wife of the 
current president, Mehriba Aliyeva, just one video gets 1.5 million 
views, which is 15 percent of the entire population of Azerbaijan. When 
we showed a video of Ilham Aliyev's old and rotten team, 1 month ago we 
published such a video, it had 800,000 views, which is 8 percent of the 
population. And by the way, I think president and his team watched it, 
because recently Aliyev actually did appoint five younger and more 
educated ministers.
    So my point is, there is genuine movement inside and outside of 
Azerbaijan. And Azerbaijan doesn't live in a vacuum. I told you about 
the history, heritage of this country. And despite all the attacks, 
organizing against people inside and outside of Azerbaijan, this 
movement is growing. It has never faded away. And the people are 
gathering their courage and have no doubt, there are millions of 
unhappy people in Azerbaijan who are waiting for the moment to show up 
in the street and get rid of Aliyev. So this will happen. It's a matter 
of time.
    And in my view, policymakers here in U.S. and in Europe, the 
European Union, they shouldn't sit and do nothing and just get 
surprised when things change in Armenia, or get surprised when 
everything changes in Ukraine, or get surprised when things change in 
Georgia, or in other dictatorships. They must start believing in the 
values on which United States of America is based, what made America 
great. You really have to believe in this. And you have to integrate it 
in your policies abroad as well, in regard to dictators like Aliyev as 
well.
    Mr. Price. And Emin, could you also address the state of access to 
information inside of Azerbaijan? I know your outlet has been blocked 
by the government. Does it remain blocked? What other outlets are 
blocked? What's the state of independent media within Azerbaijan?
    Mr. Milli. Well, the government monopolizes the entire TV, this 
classical TV infrastructure in Azerbaijan. They like to make 
statements. This is Aliyev's take at every Davos, at every forum that 
there is internet freedom in Azerbaijan. We have to understand that, 
Ordukhan can say later what is internet freedom. Even from the 
Netherlands--and the government tries to stop him in that by attacking 
his relatives and people who speak up on the internet. They are 
arresting and torturing people who write Facebook statuses. They 
blocked Meydan TV's website, Radio Liberty Azerbaijan Service website, 
Tehran TV website, Azadliq newspaper website, and many others. They are 
trying to block the information. They are not succeeding. They don't 
understand it. They have even shut down the entire internet.
    And this is my message to policymakers here in D.C., and also to 
the government of Azerbaijan. All of you have to understand. In last 5 
years--Meydan TV is a great example--they have been threatening me 
personally with this. They have been jailing my relatives. They have 
kidnapped our journalists. They blocked our website. They attacked us 
in every possible way. But every year, we just doubled our audience. So 
these repressions have never worked, and they will not work. So the 
only problem we actually have to grow and reach 60-70 percent of people 
in Azerbaijan is not Aliyev's repressions, it's our lack of resources.
    My entire thinking now is can we actually create more resources so 
we can hire more journalists within and outside of Azerbaijan, citizen 
journalists--we have a huge network of citizen journalists. People in 
every corner of Azerbaijan feeding--sending us videos. The people 
became journalists, you know, because they jailed, killed, stopped, and 
silenced so many journalists. So the citizens became journalists. It's 
even more powerful than any media could ever imagine.
    So they are trying, of course, to stop access to information. But 
the thing is, this is the problem for dictatorships, the more they try 
to close the free space, the more hunger for freedom they create, and 
the more people are interested in having more freedom and working for 
this and sacrificing for this. So this is what they tried. But they are 
failing. And I think the policymakers here have to understand these 
trends. They shouldn't be behind the trends. You know, they should be 
on top of those trends.
    Mr. Price. And, Maran, could you discuss a little bit more about 
the restrictions that NGOs face, and religious organizations, as you 
mentioned in your testimony?
    Ms. Turner. Sure. Well, as many of you in the room are probably 
aware--and I touched on in my opening remarks--there was a series of 
NGO laws that were passed a few years ago. This was not unique to 
Azerbaijan. This was a wave that we were seeing across the region. And 
laws of these types have actually been in various countries, like India 
and China, for a long time. But what we saw was a real enthusiasm, 
particularly in Eurasia and especially in Azerbaijan. And they 
essentially implemented a series of laws that required organizations to 
register with the ministry of justice, and then also required them to 
register any grants they received. And what NGOs found when they tried 
to comply with these requirements, was that they couldn't get 
registered, that in fact there would be lots of delays, or the 
registration would be lost, et cetera.
    So many of them were just, frankly, not able to register. And then 
even in some cases where they had registered, and even tried to 
register grants they were receiving, it didn't matter. These laws were 
passed with a real purpose in mind, and it was to really go after the 
leaders of civil society organizations. The cases that were brought 
against these individuals, bizarrely, were actually combined in one 
large case, I believe it had the same case number. And in the same 
case, they went after international organizations like Radio Free 
Europe and, I think, Open Society, and a few others. And the 
prosecutions, as well, were just identical--completely identical. The 
exact same allegations, which included abuse of office and illegal 
entrepreneurship. And these were also levied against Khadija 
Ismayilova, for example, who was with Radio Free Europe. But she wasn't 
running the office. So it was just a bizarre allegation against her. 
And it showed that they really weren't trying that hard.
    These laws are still in force. And this is why so many people had 
fled the country and are working from outside of the country. And this 
is, frankly, why Tbilisi, I think, has really come to the forefront of 
the Azerbaijani authorities. I mean, I think that they have been 
seeking dissidents out in Georgia for a long time and harassing people. 
But in recent years, because so many people have been using it as a 
base and the authorities weren't able to get their hands on them in 
Baku, they just walked straight across the border and went to Tbilisi. 
So they're moving further afield. As Emin astutely pointed out, this 
has greatly frustrated civil society. But it hasn't ridden the regime 
of them. They are still working. And again, as Emin said, there's 
plenty of journalists still working inside the country. It's a very 
encouraging sign to see how many people are still in that fight, and I 
hope that continues. And I know that they've got a lot of support from 
the individuals in exile.
    And the situation's probably even more dim for their religious 
groups. There are so many laws that the government has passed that 
really allow them to harass just innocent people practicing 
independently of the state. And they use those laws to put people in 
prison, not just leaders that are organizing but also just 
practitioners and people that are particularly associated with clerics 
that are outspoken. And as I said, they're generally not political. 
This is usually much more social. Azerbaijan has followed that trend, 
where once upon a time it was generally just fabricated charges like 
drug charges, hooliganism, and whatnot. In recent years they've really 
started to, in some ways, follow the path of rule of law, ironically--
which is to say instead of just making stuff up, pass some laws that 
are just Byzantine and almost impossible to dissect and understand, and 
then just apply them, across the board and with little attention to how 
they're actually applying those laws.
    Mr. Price. Thank you. I'd like to give the audience an opportunity 
to ask questions. Edwin here will pass around the microphone to anybody 
who's interested. I think we have a hand here in the back. If you'll 
wait for the microphone just for a second, because that way the folks 
on Facebook Live can hear as well.
    Questioner. My name is Abdullah Skarov [ph]. Just a few days ago, 
former U.S. Ambassador Richard Kauzlarich expressed his concern on 
social network and shared an article from the Israeli newspaper 
Haaretz. And I think the title of the article speaks for itself. It 
says how Israeli Jewish lobby groups in Capitol Hill are used by 
Azerbaijani Government as a secret weapon. And considering two sorts of 
Israel--oil is coming from Azerbaijan and multibillion dollar huge arms 
deals with Israel, and most recent escalating conflict with Iran, many 
Azerbaijani people believe this kind of inconsistent calls for 
sanctions or hearings, at best, are lip service or, worse, it's used 
after every big impact--thing like elections or huge oil contracts--to 
put the pressure--to buildup a pressure on the government to extract 
concessions. So what's your take on this?
    Thank you.
    Mr. Price. Well, I would say from the U.S. Helsinki Commission's 
perspective, I think I laid out in my opening remarks the consistency 
of our focus in light of the developments in Azerbaijan. Obviously, we 
respond to developments, we monitor commitments, and we highlight 
concerns where they exist. And that's been our practice, especially 
since the crackdown that began around 2013 and 2014. And we're here 
having this hearing in order to continue doing so.
    Questioner. Just one small additional. Emin Milli mentioned about 
corruption. There's multibillion-dollar corruption and violence. There 
are federal officials, local officials. Where this money's going? This 
multibillion dollars is usually siphoned out of the country. And in 
this case, it's reflected on arms deals, so are these arms deals with 
Israel. So the money is not staying in Azerbaijan. Nobody talks about 
these Jewish lobby groups in D.C. No one talks about where this money 
goes. They just inconsistently point fingers at the Azerbaijani 
Government.
    These sanction calls have been on the floor before. Where did it 
end up? They are not consistent. They go nowhere. It is just coming 
after elections, these hearings, these talks, good, it's closed. And, 
again, another oil contract. Some talks here and it's closed. And my 
thought is, where this is going. Are you consistent with your sorts of 
opinions on these human rights issues? Many people believe democracy in 
Azerbaijan is sacrificed. It's not a priority for U.S., as they are 
just used as a tool.
    Mr. Milli. So I think everything Abdullah [sp] said is legitimate. 
And this is unfortunately the reality of global politics today, and not 
just in regard to Azerbaijan.
    But I want to make just one point, which is very important for 
audience here and audience back in Azerbaijan who are watching us live. 
In my view, it is, first of all, for the people of Azerbaijan, for the 
citizens of Azerbaijan to change the situation in Azerbaijan, to change 
the government, to keep the president and all these corrupt officials 
in Azerbaijan accountable. So this is first of all a mission of the 
people in Azerbaijan.
    And everyone in Azerbaijan should understand this. Because unless 
we care about our own problem and we actually show the world by showing 
up, 1 million people on the streets, and demanding freedom and justice 
in Azerbaijan, why should the Israeli lobby care? Why should U.S. 
congressmen care? Why should the U.S. Government care? Of course, I'd 
make the argument that they should care, but to be honest with you--and 
I think everyone in Azerbaijan should be honest with himself or 
herself--that it is, first of all, our problem. Unless we change, 
unless we show courage and show criminals who are unfortunately 
occupying our government their place in history, this will not change 
much, unfortunately.
    Dr. Altstadt. We hear a lot about the U.S. Government does or 
doesn't do that, or a government does or doesn't do that. Government-
to-government relations do matter. But it is also important to 
recognize that there are groups and factions within governments and 
within societies in and out of government that are really working to 
support dictatorships. And there are those that are fighting against 
those dictatorships, and they're trying to promote democracy and human 
rights in whatever ways that they're able to do that. And so in a 
sense, this case we're looking at today happens to be Azerbaijan, 
because we all work on Azerbaijan and that's our focal point.
    But in the same way that dictators learn from one another across 
international borders, the human rights community and the pro-democracy 
community supports each other and they learn from each other as well. 
The lines are not only inside of individual countries, although they 
are and they must be, but there's really a much more international, a 
global division between people who favor dictatorships and favor 
supporting dictatorships by saying, oh, we can work with these people--
which sounds chillingly like the 1930s.
    And then there's the other faction that says, no, we don't accept 
all of that. We're interested in the ideals of democracy and human 
rights, even though countries that support those may do so imperfectly. 
And so the real question is, which side are you going to be on?
    Mr. Price. I think we have a question up here in front.
    Questioner. My name is Ordukhan Teymurkhan. As Emin Milli said, I 
am a political activist and video blogger in Azerbaijan, but I'm 
abroad. And as he told you, my family is regularly, in the last 3 
years, getting terrorized--I would say terrorized by the Azerbaijani 
Government. And as Emin Milli said, the accusations are going on Aliyev 
himself, Ilham, because I know a hundred percent all the orders are 
given by himself. And I would say thank you very much for Helsinki 
Commission that you are organizing these kind of discussions about the 
corruption and dictatorship of Aliyev.
    But at the same time, some European countries and even the U.S. 
Government is playing double games. For example, about the sanctions--
everybody knows that Aliyev, himself and his family is corrupt hundred 
percent, because even in The Guardian 2 weeks ago, in the newspaper 
they put that the two daughters of Aliyev, Leyla and Arzu, invested 110 
million euros in Dubai for one palm island. They both want an island, 
and on one island, more than 20 houses. Why? Why can't the European 
countries and the U.S. Government put sanctions on these corrupt 
families? And they have to start from Aliyev, Aliyev himself, and then 
the other ministers and judges, as he said. And even they didn't say 
anything about when Ilham Aliyev appointed his wife as a vice 
president. And the European--in the countries, in the Western 
countries, democratic countries said nothing about these things.
    And the elections--in one hand, in European countries we say we 
support democracy and human rights and we support only the humanity. 
And the elections in Azerbaijan, after the elections, everybody knew 
that he got 68 percent of votes. Can you imagine? And in one country 
even--no one is getting this kind of percentage in the elections. And 
in Venezuela, Europe--the U.S. Government didn't support the elections 
because the same happened in Venezuela as in Azerbaijan. And one day 
Aliyev comes and says, okay, the elections will be in April. And after 
the elections, the U.S. Government, even Trump, the President of the 
U.S., he sends a letter, congratulates Aliyev and says we are going to 
walk with you together, Mr. Aliyev. Why? Why not with Venezuela and 
with Aliyev as well?
    I am very disappointed I couldn't speak as a speaker. As Emin said, 
1 million people watch me in Azerbaijan and if there are four or five 
people, who can change the country in Azerbaijan, I am one of them. I 
may be exaggerating. I could speak and tell my people that we have to 
do it ourselves, but the democratic countries like the U.S. and the 
European countries have to give us, the Azerbaijani people, support--
not the dictator Aliyev, because of oil and money.
    I'm sorry for my long speech.
    Mr. Price. Well, thank you for coming, and glad we have this 
opportunity to open the floor to the audience and to that sort of 
participation and to hear voices from the Azeri community.
    I think there is a lot of interest here in sanctions. I was going 
to leave a question about sanctions more toward the end, but given the 
previous two questions I think it is fitting to discuss it now. There's 
been discussion of Global Magnitsky. Obviously, Global Magnitsky has 
provisions for travel bans and asset freezes for egregious human rights 
violations and also for levels of high corruption in the government.
    I was wondering if the panel would perhaps like to talk about if 
there are ongoing efforts to pursue sanctions by the NGO community 
since NGOs have the ability to provide leads and information and 
evidence to the Department of State and to our Treasury Department. And 
also what obstacles they believe stand in the way to the application of 
sanctions against Azerbaijan?
    Ms. Turner. I guess I'm the first to use the term Global Magnitsky, 
so I should speak. In short, the answer to your question is yes, there 
certainly are conversations among organizations here in Washington--and 
not just Washington. The U.S. is not the only country to pass Global 
Magnitsky legislation. A number of others have as well, including the 
United Kingdom, and there have been some recent extensions of that. And 
there have been quite a lot of discussions in both these countries 
about how they should be used, and there's a lot of coordination, which 
is important.
    I would say, sadly, the main obstacle is the fact that it's new and 
there's a certain amount of discomfort, I think, in the administration 
of maybe using them too liberally, and within that limited appetite 
there's a lot of people in a lot of countries that are all vying to put 
their names on a Global Magnitsky list. But certainly some names have 
been furnished to the State Department and to the Treasury Department, 
and there have been moves to try to promote within the administration 
to consider them closely, and they're primarily, I would say, police 
chiefs and people who've been directly accused of torture, but not just 
them. I mean, there's wider consideration of people within the various 
apparatus of government that is ongoing and systematically persecuting 
civil society. So, yes.
    Mr. Price. Are there any other questions from the audience?
    Here in the front.
    Questioner. Thank you very much for this opportunity. I would like 
us to focus on government, not on opposition, but I'm going to ask this 
question because I'm curious. Emin Milli said that the majority of 
Azerbaijani people are silenced, and he's right. This is the case. But 
when asking the question about opposition parties and movements near 
the outset, you mentioned Republican Alternative but you didn't mention 
others, especially Popular Front of Azerbaijan.
    Now, to be clear, I'm not being supportive of Popular Front of 
Azerbaijan. But today this is the single political party who organizes 
demonstrations every month, and at least several thousand people come 
to those demonstrations, knowing that they are going to be subject to 
face recognition [technology]. Now, liking posts is good. Watching 
videos is also good. But to come to demonstrations in person, it needs 
more courage, right?
    So, going back to the issue you've discussed, I think that if we 
are going to support the Azerbaijani people, we shouldn't try to 
silence political parties, people who are more active, who struggle in 
Azerbaijan. Because when you mention Republican Alternative but don't 
even mention Popular Front of Azerbaijan--which does, I believe, more 
now than others--that sounds to me like silencing the real struggle of 
the Azerbaijani people.
    Thank you.
    Dr. Altstadt. I suspect you and I both remember a time when the 
Popular Front was secretly meeting in the offices of the Academy of 
Science and the university, and they were the pioneers in the anti-
Soviet movement back in the late 1980s and the early 1990s. And if you 
go back and look at some of the programs which they first articulated, 
what is striking and was always striking to me about the things that 
they wrote was that they really understood what democracy was about. 
They really understood the concepts.
    And I think part of the reason was that these were largely 
historians and other intellectuals who had studied the First Republic 
and its leadership and its ideals. And they really had a good 
understanding of what this meant. They understand it wasn't simple. 
They understood that democracy is a struggle. Maybe we should treat it 
as a verb rather than as a noun. And I have great respect for that and 
for their tradition, and also the other parties that grew out of it and 
the National Council, which now includes many of those more traditional 
parties.
    My point is that right at the moment, those parties have been 
effectively marginalized, that they've been pushed out of their 
offices. Their publications and their leadership have been constrained. 
Ali Karimli hasn't been allowed to leave Azerbaijan in over a decade. 
And all of these things, I think, have made it much more difficult for 
them to move ahead with agenda items that they now have. The----
    Mr. Price. Sorry, could you say who Ali Karimli is.
    Dr. Altstadt. Oh, I'm sorry. Yes, Ali Karimli has been the head of 
the Azerbaijan Popular Front Party since the loss of Elchibey 
Rachmadli. And so these are an important cohort.
    And I don't want to offend them or you, but they haven't changed 
their methods in a long time. And I don't think they're appealing in 
modern ways to a new group. That's why the younger generation's so 
important. That's why social media's so important, because it's this 
younger generation that needs to take up that baton and move forward.
    In the early 1990s, people who were my teachers in Azerbaijan in 
the 1980s stuck their necks out. They stepped outside of their comfort 
zones. They got into doing political activism that was exceedingly 
dangerous for people who remembered Stalinism and remembered the 
midnight knock at the door.
    Within a year, the next generation, people who then were in their 
30s, guys who were considered to be the young radicals like Isa Gambar, 
who was the founder of the Muavat Party, and Etibar Mammadov, the 
Independence Party. These guys looked at the generation who were then 
in their 50s, who have now mostly passed away, and thought that they 
were much too conservative. They just weren't radical enough. They 
needed to go on and be more critical and do more of these kinds of 
things. And those people are now in their 50s and 60s and the next 
generation is coming along and saying you need to be more radical, you 
need to use different methods, and so on.
    And so no disrespect to anybody intended--and these people were all 
my friends--so I don't want to offend them for personal and other 
reasons--but when I'm asked about the activism for the future of 
Azerbaijan opposition--and agreeing that an opposition that we 
understand in a Western country doesn't truly exist in Azerbaijan--I 
think of that next generation that's pushing the boundaries and pushing 
the frontiers. And so I'm not silencing them. I'm trying to report what 
I think I see, and it's up to them domestically to find their own 
voices.
    Mr. Milli. Thank you very much for the question. I have personally 
huge respect for everything that Isa Gambar did, for all the struggle 
that Ali Karimli has shown in the last years. They have inspired and 
led ten thousands of people into struggle all these years under the 
worst conditions that anyone can imagine. But I think in the new 
generation of activists and the new generation of people who want to 
change Azerbaijan, they have quite different ideas about the tactics, 
strategy, methods of how this change can be achieved and what this 
change should look like.
    Again, with all my due respect for all these leaders of opposition 
of Azerbaijan which have been in charge for the last two decades in 
leading this fight, I think it's very important--the best thing that 
these leaders can do now is actually support all of the young people in 
groups, within their parties and outside of their parties, and give a 
message to people of Azerbaijan that their struggle is not personal--
it's not personally about Isa Gambar, it's not personally about Ali 
Karimli--because, unfortunately, if you talk about problems, we 
shouldn't just target the government--we should talk also about the 
opposition. There is also cult of personality in certain political 
parties.
    And this is not something that the new generation accepts. Everyone 
should be the leader. This should be the message of any political 
activist, any political leader emerging in Azerbaijan. Anyone who comes 
and says, look, I'm so great, I'm fantastic, and I will lead you into 
the new life--like, this is not something that people of Azerbaijan are 
buying. And you can see it by the views and numbers of people that 
people are reaching.
    And if people don't come to these protests in Azerbaijan that are 
monthly, routinely organized, maybe people doubt the tactics. Maybe 
they think that this is not effective. Maybe they don't see the point 
to come show up so government spies film them and then pressure them 
and their families. I think millions of people in Azerbaijan are ready 
to stand up and come and fight for freedom, but they are trying to 
understand how we can do it in one day, all of us together--one day to 
come on the street, finish this, and then go home and do our routine 
life.
    And this leader should be ready that people are questioning it and 
they need to think about how they work with social media, how they 
communicate with people, what their attitudes are toward tactics, 
strategy and communication with the people. So when there are new 
political activists, political leaders or groups emerge and suggest 
something alternative, I think it's a process of national selection.
    And you cannot say to someone, why do you do this or why you don't 
do this--it's a natural process. And time and history will show what 
can lead and who can change Azerbaijan and what this change will look 
like. But there are certainly, again, hundreds of people who are maybe 
not even on the surface now, but they are ready to lead the government, 
various ministers. They are experts. They are very successful abroad, 
all inside of the country in their own specific field, and they are 
just waiting for this moment that Azerbaijan will change, and then we 
will all see that we are hundreds, thousands of people who can make 
ministries, bureaucracy, political parties and new civic groups.
    Mr. Price. I think we have time for one more question. I'm going to 
take the woman in the back, please.
    Questioner. Hi, I'm Cathy Cosman. I used to work at the U.S. 
Commission on International Religious Freedom.
    Thank you so much, Maran, for bringing up the issue of religious 
prisoners, the majority, as they are, in all post-Soviet states. And I 
want to point out that the vast majority of political prisoners, or 
religious prisoners--however you want to call them--prisoners of 
conscience, who by definition have not used violence or advocated for 
it, are independent Muslims. And both human rights groups, civil 
society, government groups, with the exception of the organization 
where I used to work, do not pay attention to Muslims. And I really 
think this is not only a flaw from the point of view of human rights, 
but it's also a huge strategic error, because then by ignoring the 
problems of Muslims, be they still living under onerous and unfair 
legislation, or all the more so if they're imprisoned for their 
independent religious views and activities, as Muslims, they of course 
will be alienated from the West. And I think that's something that none 
of us want, I hope.
    Mr. Price. Thank you.
    I would also just comment that Congressman Smith's H. Res. 537 
calls for the U.S. administration to pursue potential International 
Religious Freedom sanctions, which are travel bans against the worst 
violators of that fundamental freedom within Azerbaijan. So there's 
definitely an intention to that on the part of Congressman Smith's 
resolution.
    Emin, if you'd like to say a last word, and then I think we'll wrap 
up.
    Mr. Milli. We have very courageous religious activists like Taleh 
Bagirzade, for example, who's languishing in jail in Azerbaijan. And I 
want you to know that he has quite tolerant and quite embracive views 
about the relationship between government and society.
    And I think that Islam and religion in Azerbaijan has been 
historically quite different from many times. I mean, it's not for 
nothing that Azerbaijan was the first democratic country in the Muslim 
world, that created parliamentary republic, that gave rights to women 
to vote. And this is another propaganda of government, when they try to 
present situation in Azerbaijan as such, if Aliyev goes, there is this 
bunch of Muslim leaders and activists and Azerbaijan will turn into 
another Iran or Saudi Arabia. This is just not true. Anyone who 
traveled in Azerbaijan, anyone who lived in Azerbaijan, people when 
they come here, they're actually a bit surprised that the level of 
secularism in Azerbaijan, it goes beyond what this government thinks 
about this or can do about it, you know? It is just in the DNA of the 
history of Azerbaijan--and let's say tomorrow Aliyev is gone and we 
have a parliamentary republic, I'm sure there will be Islamist party 
and they will have probably 10-20 percent in parliament.
    People understand very well the importance of the separation of 
state and religion. And I think a lot of people in Azerbaijan 
understand themselves as Muslims, and this is their constitutional 
right. But when it comes to practice, the majority of Azerbaijanis are 
not practicing Islam in the way, for example, that people in Saudi 
Arabia or Iran are practicing Islam. I'm absolutely sure that, as Maran 
also said, people who are practicing Islam in a way that it is 
practiced, for example, in Iran or other Muslim countries, they have 
major grievances. It's about injustice. It's about how government 
treats its own citizens regardless of them being Muslims or not 
Muslims.
    And as long as this problem exists, this helps the radicalization 
of this minority, and it doesn't help the development of Azerbaijan. 
The situation is not as the government tries to present it, especially 
here in the West, in the U.S., in Europe. And just one trip to 
Azerbaijan would be enough to understand what kind of society is 
Azerbaijan. So this government, it stops Muslims, everyone in 
Azerbaijan from the next stage of development, unfortunately.
    Mr. Price. I'm extremely grateful to our panelists, all of whom 
traveled fair distances to be here with us today. I'm especially 
grateful to Emin Milli. I think one of the great opportunities that we 
have with these briefings is to feature people who have been on the 
ground doing the difficult work of defending freedom and spreading free 
information, and at a very high personal cost oftentimes. So I'm 
grateful for your presence and the presence of the other Azeri 
activists who have spoken here today.
    And I thank you all for your attendance here and for all those who 
have watched live on Facebook Live. The briefing is hereby adjourned.
    [Whereupon, at 12:05 p.m., the briefing ended.]
 
 

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
